Audit Report GR-50-05-009

Office of Justice Programs, National Criminal History Improvement Program Grant Administered by the Kentucky Justice Cabinet, Frankfort, Kentucky

Audit Report GR-50-05-009


May 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National Criminal History Improvement Program grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to the Kentucky Justice Cabinet.  The purpose of the grant was to assist the Kentucky Justice Cabinet (KJC) in designing, implementing, and maintaining an integrated computer network in order to provide full interoperability of information and software used by Kentuckys criminal justice agencies.  As of September 30, 2004, OJP had awarded a total of $2,072,536 to the KJC.  At that time, KJC reported $1,724,069 in grant-related costs, of which $1,397,673 (81 percent) had been reimbursed by OJP.

Although the Kentucky Justice Cabinet is the grantee and has overall responsibility for administering the project, all costs chargeable to the grant are being incurred by two branches of the KJC.  The Kentucky Department of Corrections and the Kentucky State Police (KSP) were sub-grantees for the original award, and the KSP is the sole sub-grantee for the three supplements.

We tested KJCs accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Specifically, we reviewed all grant expenditures incurred through April 15, 2004, totaling $1,483,803.  We found that KJCs controls over expenditures were generally adequate to ensure that expenses were properly accounted for and that transactions were accurately recorded and supported.  However, we found that KJC was not recording all local match on its grant accounting records.  Also, KJC could improve its submission of financial and progress reports to be more timely and accurate.

This is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.  

We discussed the results of our audit with KJC officials and have included their comments in the report as applicable.  In addition, we requested and received responses to our draft report from KJC and OJP.  These responses appear in Appendices II and III, respectively.